Oversight Review          May 1, 2007

            Review of the
    Defense Contract Audit Agency
        Quality Control System
     (Report No. D-2007-6-006)
  Additional Copies
  To obtain additional copies of the final report, visit the website of the Department
  of Defense Inspector General at www.dodig.mil/audit/reports or contact the Office
  of Assistant Inspector General for Audit Policy and Oversight at (703) 604-8760 or
  fax (703) 604-9808.

  Suggestions for Audits

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760 (DSN
  664-8760) or fax (703) 604-9808. Ideas and requests can also be mailed to:

                                     OAIG-APO
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 1015)
                             Arlington, VA 22202-4704




Acronyms
AICPA                 American Institute of Certified Public Accountants
AUP                   Agreed-Upon Procedures
CACS                  Contract Audit Closing Statement
CAM                   Contract Audit Manual
CAS                   Cost Accounting Standards
DCAA                  Defense Contract Audit Agency
DFARS                 Defense Federal Acquisition Regulation Supplement
FAR                   Federal Acquisition Regulations
GAS                   Government Auditing Standards
GAGAS                 Generally Accepted Government Auditing Standards
ICSR                  Internal Control System Review
ODC                   Other Direct Costs
PCIE                  President’s Council on Integrity and Efficiency
Appendix A. Comments, Observations, and
            Recommendations
We determined that the DCAA quality control system is adequately designed and
functioning as prescribed. 1 The concerns we identified with the findings, conclusions, or
recommendations during our review of the selected DCAA assignments and associated
reports were not cumulatively significant enough to indicate that material deficiencies
existed in the DCAA quality control system for complying with generally accepted
government auditing standards (GAGAS). Also, DCAA demonstrated that it
implemented internal procedures for monitoring its ongoing compliance with quality
control policies and procedures. Specifically, DCAA performed cyclical internal quality
assurance reviews during the prior 3 years on forward pricing, internal control system,
incurred cost, and “All Other 2 ” reviews and the general standards.

Although the concerns we identified did not affect our overall opinion, DCAA could
improve its quality assurance program by assigning independent quality assurance
auditors to review Field Detachment assignments, increasing coverage of internal control
system reviews (ICSRs), and verifying audit office implementation of repeat
noncompliances. DCAA should also revise its guidance for attestation engagements on
desk reviews of incurred cost submissions under $15 million; contract audit closing
statement reviews; Agreed-Upon Procedures (AUPs) engagements; identification of
criteria; planning, risk assessment, and designing tests for fraud, illegal acts, violations of
contracts or grant agreements, and abuse; and documentation and reporting of sampling
plans. Implementing the following recommendations would improve the quality control
system and help maintain an adequate opinion.

Quality Control and Assurance
        1. Independent Internal Quality Assurance Review of Field Detachment
Offices. From June 2005 through October 2006, the DCAA process for allowing
auditors 3 from the Field Detachment quality assurance division to perform the overall
headquarters-led quality assurance reviews of selected Field Detachment offices did not
provide the needed independence for an internal quality assurance review. Originally,
DCAA decided not to independently test the Field Detachment based on workload,
security considerations, and the fact that DCAA considers the Field Detachment Quality
Assurance Division independent because it is separate from Field Detachment audit
operations. During the DCAA first cycle of quality assurance reviews, as an alternative
to our recommendation to have independent reviewers perform the Field Detachment
internal quality assurance review, DCAA added the requirement for the Deputy Director,
DCAA, to select the offices for review and review the draft and review and sign the final
memorandums for record. However, during the second cycle of quality assurance
reviews, the Deputy Director retired and in June 2005, the Director, Field Detachment,

1
    An adequate system that is functioning as prescribed equals an unmodified opinion as defined by the
    President’s Council on Integrity and Efficiency.
2
    “All Other” reviews include Cost Accounting Standards and Disclosure Statement reviews, equitable
    adjustments, terminations, defective pricing, and special reviews.
3
    The terms “audit” and “auditor” are used generically by both DCAA and the Government Accountability
    Office to cover all types of evaluations done in accordance with GAGAS or individuals with titles other
    than “auditor” who perform such reviews.



                                                      1
assumed the Deputy Director position. DCAA recognized that an independence issue
existed because the new Deputy Director had had overall management responsibility for
the Field Detachment. To resolve the independence issue, DCAA requested the required
security clearance for a headquarters quality assurance staff member. In December 2006,
DCAA informed us that the clearance had been granted.

One independent reviewer on the headquarters-led internal quality assurance team is the
minimum needed. Headquarters-led internal quality assurance reviews of audit offices in
the five regions are performed entirely by quality assurance staff from either headquarters
or other regions. DCAA should revise the review process for Field Detachment so that it
more closely follows the same process for the regions, taking into account security
considerations. This would require the Chief, Quality Assurance Division, Policy and
Plans, to obtain the required clearances so that they can review and properly oversee the
work. Other quality assurance staff would also require clearances or access to
unclassified Field Detachment work.

During our review of the Field Detachment location, we found that all assignments
performed by the office were not classified; therefore, an uncleared headquarters quality
assurance team member could review some assignments at certain Field Detachment
offices depending on security requirements such as facility access. In the past, the
DCAA Field Detachment has placed uncleared auditors in unclassified areas at locations
with classified work and provided them with unclassified assignments to perform while
awaiting their security clearances. However, when allowing an uncleared quality
assurance auditor access to unclassified assignments is too great a security risk, DCAA
headquarters should ensure that more than one headquarters or regional quality assurance
auditor has the necessary clearances. Obtaining the required clearances can take more
than a year depending on the circumstances, and relying on one quality assurance auditor
to work on all the reviews may not be practical. That individual may be promoted or
rotated to a different position within several years, require an extended leave of absence,
or encounter a personal independence issue that could require them to recuse themselves
from a review. Therefore, DCAA headquarters should take additional steps so that more
than one independent quality assurance auditor can be assigned to each headquarters-led
quality assurance review of Field Detachment assignments.

Recommendations, Management Comments, and DoD IG Response
       1. The Director, Defense Contract Audit Agency should revise the
headquarters-led quality assurance review process and obtain the needed security
clearances and billets so that:

              (a.) the Chief, Quality Assurance Division, Policy and Plans, has the
       required clearance(s) for access to Field Detachment work, and

              (b.) more than one headquarters or regional quality assurance
       auditors can participate in the headquarters-led internal quality assurance
       reviews of Field Detachment offices.

Management Comments. The DCAA Assistant Director for Policy and Plans partially
concurred with the recommendations. DCAA agreed to have a second member of the
Headquarters, Quality Assurance Division staff obtain the necessary security clearance
but disagrees with the recommendation that the Chief, Quality Assurance Division,
should obtain a security clearance for access to Field Detachment audit work.



                                             2
DoD IG Response. We accept the DCAA proposed action as partially meeting the intent
of the recommendations. However, DCAA should reconsider its nonconcurrence to
getting the Chief of the Quality Assurance Division the necessary clearances to properly
supervise the quality reviews of the Field Detachment. Proper supervision requires the
supervisor have access to the same data the auditor saw.

         2. Quality Assurance Program Coverage of Internal Control System
Reviews. DCAA reduced its coverage of ICSRs to an inappropriate level during its
second cycle of headquarters-led quality assurance reviews by selecting significantly
fewer offices and assignments for review. During the first cycle, DCAA reviewed a total
of 84 ICSRs at 18 audit offices. For the second cycle, DCAA reviewed 36 ICSRs at
6 offices and 10 estimating system reviews at 10 additional audit offices for a total of
46 ICSRs. The first cycle coverage was based on the number of ICSR assignments
performed. For the second cycle, DCAA based the number of ICSRs reviewed on the
direct audit hours charged to system reviews, not including estimating, as a percentage of
total direct hours charged. DCAA auditors charged 8.5 percent of the total direct hours
to ICSR assignments in FY 2003 versus 5.6 percent of total direct audit hours in FY
1999. 4 Even though the percent of direct hours charged to ICSRs increased, the second
cycle quality assurance reviews covered only half the number of assignments reviewed
during the first cycle. Other than for estimating system reviews, the quality assurance
review process did not cover enough audit offices to provide assurance that a deficiency
did not exist across the agency unless the deficiency was so severe that it occurred at
almost all offices. Additionally, the second cycle review did not include a sufficient
number of certain ICSRs to followup on previously identified deficiencies. For instance,
in the first cycle, DCAA found that during the Indirect Cost and ODC [Other Direct
Costs] System reviews the offices were not always adequately auditing the portion of the
system relating to ODCs. DCAA determined that the standard program needed to be
revised. During the second cycle, the quality assurance review team only evaluated one
Indirect Cost and ODC System review for compliance with GAGAS. One review is not
sufficient to determine whether prior corrective actions have been effective.

DCAA uses the ICSRs results as a major part of their risk assessment for all other work
performed at a major contractor. DCAA identifies 10 internal control systems that may
be appropriate to review at each major 5 contractor. In FY 2006, DCAA expended only
6.4 percent of direct audit hours on performing ICSRs. However, during the same time
period, DCAA used the results from ICSRs to assess risk when auditing $247 billion or
72 percent of total FY 2006 dollars examined, on assignments for major contractors.
During the FY 2006 external quality control system review, we identified 5 of 24 ICSRs
(20 percent) reviewed where DCAA inappropriately opined on the adequacy of a
contractor’s internal control system because of insufficient compliance testing or other
evidence issues. Sufficient compliance testing during the ICSRs is essential for ensuring
that the appropriate amount of testing or review is performed on other assignments at the
same contractor. Therefore, DCAA should increase the number of audit offices and
assignments reviewed during its quality assurance reviews of ICSRs and perform other
monitoring activities of ICSRs because inadequate ICSRs have a far-reaching effect on
other DCAA work. A reasonable approach, considering resource restraints, would be for
DCAA to double the number of offices reviewed during the second cycle while
maintaining the number of assignments reviewed at six per office. This approach should
broaden the overall coverage, but not increase the time spent reviewing each office.

4
    DCAA auditors charged more hours in FY 2003 (300,100) versus FY 1999 (264,401) to ICSRs.
5
    A major contractor is one with $90 million or more in auditable contract dollars.


                                                        3
Recommendation, Management Comments, and DoD IG Response
Recommendation 2.

       The Director, Defense Contract Audit Agency should provide the
headquarters Quality Assurance Division with additional staff so that at least
12 audit offices and 72 internal control system reviews can be reviewed during the
third quality control cycle of internal control system reviews.

Management Comments. The DCAA Assistant Director for Policy and Plans partially
concurred with the recommendation. DCAA agreed that for the current round of the
Headquarters Quality Assurance Division reviews, they would expand their review of
ICSR assignments by increasing the number of FAOs and assignments reviewed based
on number of ICSR assignments performed by region and related to risk.

DoD IG Response. We accept the DCAA proposed actions as satisfying the intent of the
recommendation.

        3. Quality Assurance Program Followup on Repeat Noncompliances at
Audit Offices. For its second cycle of headquarters-led internal quality control reviews,
DCAA identified repeat noncompliances at 22 of 48 reviewed audit offices. DCAA
considered agency-wide repeat noncompliances to be implementation issues, and,
therefore, headquarters quality assurance division was not involved in determining
whether the audit office had implemented effective corrective actions for the repeat
noncompliances. For 17 audit offices that DCAA rated “satisfactory” out of the 22 that
had repeat noncompliances, neither headquarters nor the region was required to perform
any follow-up on the planned corrective actions. The headquarters Quality Assurance
Division did review the audit offices’ comments to the trip reports and the proposed
corrective actions to ensure that the audit office planned to take additional actions beyond
those previously taken. Continued repeat noncompliances may indicate significant
deficiencies in the DCAA quality control system, and could negatively impact the overall
opinion. Therefore either the regional or headquarters quality assurance team should
verify that the audit offices properly implemented the planned corrective action and that
it was effective.

Recommendation, Management Comments, and DoD IG Response
Recommendation 3.

        The Director, Defense Contract Audit Agency should revise the existing
headquarters-led quality assurance review process starting with followup actions
for the second round so that either a regional or headquarters quality assurance
staff member would evaluate the effectiveness of corrective actions planned or
implemented by each audit office for all repeat noncompliances.

Management Comments. The DCAA Assistant Director for Policy and Plans partially
concurred with the recommendation. DCAA agreed to revise the Headquarters Quality
Assurance process to require Regional Quality Assurance staff to evaluate the
effectiveness of the corrective actions implemented by audit offices for repeat
noncompliances. DCAA plans to begin the new process for the third round of quality
assurance reviews, which began in October 2006. However, DCAA will not apply the
process to the corrective actions proposed for the second round of quality assurance
reviews.


                                             4
DoD IG Response. Although the DCAA proposed action meets the intent of the
recommendation, we suggest DCAA reconsider their decision not to implement the
process on the corrective actions proposed in the second round. Early identification of
ineffective corrective actions would allow time for reassessment and implementation of
alternative actions.


Types of Attestation Engagements
        4. Desk Reviews of Contractor Incurred Cost Submissions Under
$15 Million. DCAA did not comply with GAGAS when performing incurred cost desk
reviews as review-level engagements. The purpose of an incurred cost assignment is to
determine whether the contractor complied with applicable laws, regulations, and
contract provisions when charging costs to the Government. GAGAS, however, does not
permit auditors to perform a review-level engagement when determining whether an
entity has complied with laws and regulations.

DCAA must either perform the desk reviews as an examination or AUP engagement or
not state that a desk review was performed in accordance with GAGAS. DCAA
performs desk reviews on incurred cost submissions from contractors that have less than
$15 million in auditable dollars and are considered low risk because DCAA did not
identify questioned costs on previous incurred cost assignments. For these contractors,
DCAA performs an examination of their incurred cost submission only once every
3 years. For the other 2 years, DCAA performs a limited review, issues a report
providing negative assurance, and states the review was performed in accordance with
GAGAS. In FY 2006, DCAA auditors charged more than 33,500 hours to desk reviews
and recorded $1.6 billion as dollars examined. DCAA should correct the noncompliance
in a timely manner by either issuing guidance that conforms with GAGAS to the field on
how to perform or report on desk reviews or temporarily suspend performance of desk
reviews until the GAGAS noncompliance issue is resolved.

Recommendation, Management Comments, and DoD IG Response
Recommendation 4.

       The Director, Defense Contract Audit Agency should suspend the
performance of desk reviews until agency guidance on performing desk reviews is
issued that complies with generally accepted government auditing standards.

Management Comments. The DCAA Assistant Director for Policy and Plans concurred
in principle with the recommendation. DCAA issued guidance on April 11, 2007,
effective immediately, requiring desk reviews be closed by issuing a memorandum that
does not state the review was performed in accordance with GAGAS.

DoD IG Response. We accept the DCAA actions as satisfying the intent of the
recommendation and commend DCAA on taking immediate corrective actions.

        5. Contract Audit Closing Statement Assignments. DCAA did not comply
with the applicable GAGAS requirements when performing the six reviewed contract
audit closing statement (CACS) assignments 6 because its CACS standard programs do
not prompt an auditor to perform key required audit steps. DCAA performs CACS
6
    For FY 2006, DCAA auditors charged approximately 1.7 percent of direct hours to CACS.



                                                    5
normally as an examination, but for situations when a quick close-out is permissible,
DCAA performs an AUP. For CACS performed as an examination, the standard
program clearly states that the closing procedures are administrative in nature and DCAA
should have audited the costs in other assignments. Steps are included to reconcile the
voucher to either the audit files or the contractors records; however, a CACS assignment
is still, generally, a summary or restatement of prior audit work that should have
complied with GAGAS and does not itself actually comply with GAGAS as stated in the
report. For instance, the CACS standard program does not have steps to design
procedures to detect or identify potential fraud that is material to the assertion.
Additionally, because DCAA only issues a CACS report when cumulative allowable cost
worksheets have not been prepared for the entire period of performance, apparently,
contracting officers do not require an opinion as provided in an examination report to
close out the contract. Under these circumstances, DCAA should revise its procedures to
issue a report that specifies that the review was not performed in compliance with
GAGAS. The report format should also be revised to eliminate any wording that might
improperly infer to the user otherwise.

For CACS performed as AUPs, the standard program does not include a step for the
auditor to discuss performing an AUP with the contracting officer. Therefore, the auditor
does not have to obtain the requestor’s agreement with the planned procedures to be
performed or document that the requestor assumes the responsibility for the procedures
and criteria. DCAA performs quick close out CACS assignments when they have not
audited all the incurred costs, but the contracting officer is allowed by Federal
Acquisition Regulations (FAR) to close out a contract prior to finalizing all the indirect
rates. DCAA must confirm with the contracting officer that the contract is subject to
quick close out and what procedures the contracting officer requires DCAA to perform.
Therefore, for DCAA to perform these CACS as AUPs, they need to revise the standard
program to require the auditor to perform and document these keys steps. DCAA could
choose to issue a report that specifically states the review was not done in compliance
with GAGAS and remove any standard wording that could confuse the user by inferring
that the auditor had performed a GAGAS compliant review.

Recommendations, Management Comments, and DoD IG Response
Recommendation 5.
       The Director, Defense Contract Audit Agency should:

              (a.) determine whether contract audit closing statement reviews
       should be performed in compliance with generally accepted government
       auditing standards, and, if so, what type of attestation engagement, and

              (b.) revise the Contract Audit Manual guidance, standard audit
       programs, pro forma reports, and training for performing contract audit
       closing statements are revised based on that decision.

Management Comments. The DCAA Assistant Director for Policy and Plans concurred
with the recommendations and has initiated a study of their guidance on performing
CACS assignments. DCAA intends to revise their guidance by October 2007, for the
performance of CACS assignments based on the results of the study. DCAA disagreed
with the conclusion that CACS assignments were not performed in compliance with
GAGAS because GAGAS evidence standards provides for the reliance on the work of
others.


                                            6
DoD IG Response. We accept the DCAA actions as responsive to the intent of the
recommendations.

        6. Agreed-Upon Procedures Engagements. In the majority of the 21 reviewed
AUP engagements, 7 DCAA did not comply with key GAGAS or American Institute of
Certified Public Accountants (AICPA) attestation standards as incorporated in GAGAS. 8
Noncompliances with GAGAS identified in the AUP assignments reviewed included
assignments that:

      •    had no evidence that the requestor agreed to or accepted responsibility for the
           procedures performed;
      •    did not have the criteria appropriately defined;
      •    did not define the procedures appropriately; and
      •    did not comply with all the reporting requirements.

In three of the worst situations, the noncompliances were so significant that the related
reports contained misleading, inaccurate, or incomplete information and, therefore,
should not have been issued.

DCAA revised its guidance and required training based on its last two headquarters-led
quality assurance reviews. However, DCAA needs to implement several additional
corrective actions so that agency auditors consistently comply with the GAGAS when
performing AUPs. In July 2004, to correct deficiencies identified by the DCAA
headquarters-led quality assurance team in performance of AUPs during the FY 2003
quality assurance review of forward pricing audits, DCAA issued revised guidance on
AUPs and required the audit offices to provide training using headquarters-developed
AUP training materials. During its FY 2006 quality assurance review of “All Other”
assignments, DCAA again identified deficiencies in performance of AUPs, but they
considered the deficiencies less significant than those from the first cycle quality
assurance reviews. DCAA required all regional and Field Detachment management to
establish and submit to the Deputy Director for approval an appropriate quality control
monitoring process for planning, performing, and reporting AUPs by April 28, 2006. In
a November 9, 2006, memorandum, DCAA Headquarters provided training materials for
Regional and Field Detachment office staff to assist them in their AUP monitoring
efforts. The training was to be completed by January 31, 2007. In March 2007, DCAA
has issued a required AUP self-study course that auditors must take prior to performing
their first AUP assignment.

DCAA revised existing Contract Audit Manual (CAM) language and pro forma reports to
make them applicable to AUPs, but this resulted in inconsistent guidance that did not
fully comply with GAGAS. For instance, DCAA guidance instructs auditors to revise
audit reports by deleting the word “audit” and inserting the phrase “application of agreed-
upon procedures.” AUP reports should state that no opinion is provided and only present
the procedures performed and the results. DCAA guidance instructs the auditor that

7
    DCAA estimates that in FY 2006, auditors only charged 2 percent of direct audit hours to AUPs.
8
    GAGAS incorporates the AICPA general standard on criteria for attestation engagements and requires
    auditors to also follow all the GAGAS general standards when performing work in compliance with
    GAGAS. It also incorporates the AICPA field work and reporting standards for attestation engagements
    and, as of when DCAA performed the reviewed audit assignments, all the AICPA Standards for
    Attestation Engagements. Additionally, GAGAS provides additional field work and reporting standards
    for attestation engagements performed in compliance with GAGAS.



                                                      7
when writing the results section of the report, they should describe the contractor books
and records to which the agreed-upon procedures were applied and that the auditor
should provide appropriate explanatory notes. However, explanatory notes generally
include far more information such as the contractor’s basis for a cost, than is required for
AUPs. For AUPs, the auditor should separately list each agreed-upon procedure and then
describe the finding for that procedure. Therefore, the edit changes did not clarify the
reporting guidance and pro forma report. Instead, auditors could easily become confused
about what they should do when performing AUPs. In another CAM section, the
guidance discusses the GAGAS applicable to AUPs and uses poorly chosen words to
conclude, “The agreed-upon procedure engagements are not considered examinations
because of limitations of the audit scope.” This statement infers that an auditor could
start an assignment as an AUP and then, by eliminating a scope limitation, make it an
examination. However, because the requestor assumes full responsibility for the
adequacy of the procedures and the criteria, performing an AUP does not require the
same planning steps as an examination.

DCAA should completely rewrite the guidance on AUPs to fully comply with GAGAS
requirements and consolidate all guidance, not including guidance on report content, in a
separate chapter or chapter section in its CAM. This would lessen the chance that
auditors would confuse an AUP with other attestation engagements and facilitate auditor
compliance with GAGAS for AUPs. DCAA should also revise its pro forma audit report
for AUPs so that it specifically covers GAGAS required reporting elements for AUPs.
The current pro forma AUP report is a revised version of its other pro forma audit reports
and, therefore, does not present the required information in as straight forward a manner
as is possible. This, in turn, can confuse both the auditor drafting an AUP report and the
requestor who reads it.

Recommendations, Management Comments, and DoD IG Response
Recommendation 6.

       The Director, Defense Contract Audit Agency should:

             (a.) revise all guidance on performing agreed-upon procedures
       engagements in a separate Contract Audit Manual chapter or section of a
       chapter solely devoted to agreed-upon procedures engagements,
               (b.) revise the agreed-upon procedures pro forma report so that it
       complies with generally accepted government auditing standards and is
       easily distinguished from other standard audit report formats,

             (c.) identify and track all assignments performed as agreed-upon
       procedures engagements in the agency management information system, and

              (d.) require regional and Field Detachment management to monitor
       on an ongoing basis agreed-upon procedures engagements to ensure that
       they are performed in compliance with generally accepted government
       auditing standards until the headquarters-led quality assurance review team
       completes the third cycle reviews.

Management Comments. The DCAA Assistant Director for Policy and Plans concurred
with recommendation (a.) and plans to consolidate the DCAA guidance for AUPs, except


                                             8
simply “FAR, DFARS, or Applicable Agency FAR Supplement, and CAS [cost
accounting standards].” For report writing, the guidance is similar to that for planning as
shown in the pro forma attestation reports example. Both the FAR and DFARS are
voluminous; therefore, some further definition of the specific section(s) of FAR and
DFARS is needed. When the auditor uses such general criteria in the planning document,
they must then include more defined criteria used related to specific tests or other steps in
the relevant working papers. To comply with other GAGAS requirements, including
proper supervision and internal and external quality assurance reviews of the work, the
auditor must identify the specific criteria used in the working papers and the report.

Supervisors, internal quality assurance reviewers, and external reviewers should not
assume that the auditor used the correct criteria. They must be able to verify the specific
criteria used to assess the work performed.

Recommendations, Management Comments, and DoD IG Response
Recommendation 7.

      The Director, Defense Contract Audit Agency should revise the Contract
Audit Manual to require auditors to identify the specific criteria actually used in the
performance of attestation examinations and reviews either on the planning
document working paper or in the scope section of working papers.

Management Comments. The DCAA Assistant Director for Policy and Plans
nonconcurred with the recommendation. DCAA did agree that applicable non-DoD
regulations should be referenced in the report and working papers and issued policy in
December 2006 to that effect. However, DCAA believes that their guidance, which
requires authoritative criteria (FAR, DFARS, CAS) used in audit procedures testing for
compliance be documented in the working papers and that specific provision of the
criteria (FAR 31.205-33) be documented in the case of noncompliance practices or costs
questioned, complies with GAGAS.

DoD IG Response. DCAA needs to reconsider its position on this recommendation.
GAGAS requires auditors to state the criteria to provide a context for evaluating evidence
and understanding the findings. Without the criteria, supervisors, internal quality
assurance reviewers, and external reviewers are unable to verify the specific criteria an
Auditor used to assess the work performed, even if there are no noncompliance practices
or costs questioned.
Fraud, Illegal Acts, Violations of Contracts or Grant
Agreements, and Abuse
        8. Planning, Risk Assessment, and Designing Tests. The six audit offices
evaluated during our review did not implement the DCAA guidance for major contractors
requiring them to ask contractor representatives about their knowledge of fraud risks
during the annual audit coordination process. DCAA also expected its auditors to ask
management, audit committees, internal auditors, and other contractor personnel, as
deemed appropriate, about their views of fraud risks. DCAA added this requirement in
January 2004, to incorporate revisions that the AICPA made to its auditing standard on
the auditor’s responsibility relating to fraud. An auditor should use the information
gained from such inquiries to properly plan individual examination assignments by
designing specific steps to detect material instances of potential fraud, illegal acts, or
violations of contract provisions. Therefore, the six audit offices did not fully comply


                                             10
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer

Other Defense Organizations
Director, Defense Contract Audit Agency

Congressional Committees and Subcommittees, Chairman and Ranking
  Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
  and Government Reform
House Subcommittee on Information Policy, Census, and National Archives, Committee
  on Oversight and Government Reform




                                          17
Appendix D. Defense Contract Audit Agency
Comments




                     19
20
21
Final Report
 Reference




Added on
page 7




               22
23
24
25
26
27
